Matthew J. Kita
attorney and counselor at law
licensed in texas and california

April 30, 2020
Via e-filing
Mr. Scott S. Harris
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Kaufman County, Tex. v. Winzer
Case No. 19-889

Dear Mr. Harris:
I represent Respondent Eunice Winzer in the above-referenced matter. This Court has
requested a brief in opposition to the petition for writ of certiorari by today, April 30,
2020. Although I intended to have this brief filed by this evening, I was unfortunately
unable to do so.
I write to request a retroactive extension of this deadline to Tuesday, May 5, 2020.
Respondent’s failure to timely file her brief was not the product of the inadvertence of
their undersigned counsel. To the contrary, as a result of the COVID-19 outbreak, her
undersigned counsel’s obligations to his two children (both under the age of 10, one of
whom is sick) are currently being homeschooled via distance learning, which has diverted
his attention from this matter. In addition, because the children’s mother is general
counsel for human resources to a large corporation, who has also been working 10-hour
days, the undersigned counsel has had a substantial role in daytime child-care
responsibilities as well.
With the Court’s permission, the undersigned counsel will finalize this brief over the
weekend, will send it to the printer on Monday, May 4, 2020, and paper copies will be
filed with the Court on Tuesday, May 5, 2020.
Respectfully submitted,

Matthew J. Kita

214.699.1863

p.o. box 5119
dallas, texas 75208

matt@mattkita.com

